APPENDIX TABLE OF CONTENTS
Order of the Supreme Court of Texas
Denying Petition for Review (June 18, 2021) .... 1a
Memorandum Opinion of the Court of Appeals
for the First District of Texas (July 7, 2020) ..... 3a
Judgment of the Court of Appeals for the
First District of Texas (July 7, 2020) ............... 32a
Order Denying Roger Abshire and
USK9 Unlimited’s Special Appearance
(August 27, 2019) ............................................. 34a
Bench Ruling Transcript Relevant Excerpt
(August 23, 2019) ............................................. 36a

App.1a
ORDER OF THE SUPREME COURT OF TEXAS
DENYING PETITION FOR REVIEW
(JUNE 18, 2021)
SUPREME COURT OF TEXAS
________________________
PANNELL
v.
ABSHIRE
________________________
RE: Case No. 21-0098
COA#: 01-19-00710-CV
TC#: 2017-52769-A
Today the Supreme Court of Texas denied the
petition for review in the above-referenced case.
(Justice Lehrmann not participating)
Mr. Christopher Prine (1st COA)
Clerk, First Court of Appeals
301 Fannin
Houston, TX 77002
*Delivered via E-mail*
Alexander Houthuijzen
Alexander J. Houthuijzen,
Attorney at Law, PLLC
917 Franklin St, Ste 230
Houston, TX 77002-1741
*Delivered via E-mail*

App.2a
Mr. Benedict Hoffman
Tribble Ross
6371 Richmond Ave
Houston, TX 77057-5928
*Delivered via E-mail*
District Clerk Harris County
Harris County Civil Courthouse
P.O. Box 4651
Houston, TX 77210
*Delivered via E-mail*
Mr. Randall C. Owens
Wright Close & Barger, LLP
1 Riverway Ste 2200
Houston, TX 77056-1981
*Delivered via E-mail*

App.3a
MEMORANDUM OPINION OF THE
COURT OF APPEALS FOR THE FIRST
DISTRICT OF TEXAS
(JULY 7, 2020)
IN THE COURT OF APPEALS FOR THE
FIRST DISTRICT OF TEXAS
________________________
ROGER ABSHIRE AND USK9 UNLIMITED, INC.,
Appellants,
v.
JUSTIN PANNELL,
Appellee.
________________________
No. 01-19-00710-CV
On Appeal from the 80th District Court Harris
County, Texas Trial Court Case No. 2017-52769-A
Before: KEYES, LLOYD, HIGHTOWER, Justices.
MEMORANDUM OPINION
In this interlocutory appeal, Roger Abshire
(“Abshire”) and USK9 Unlimited, Inc. (“USK9”) appeal
the trial court’s order denying their special appearance
in the lawsuit brought by Justin Pannell (“Pannell”).
Abshire and USK9 contend that the trial court erred
in denying their special appearance because there is
insufficient evidence to support a conclusion that they
are subject to either general or specific jurisdiction in

App.4a
Texas, and they did not waive their special appearance. We reverse.
Background
A.

Factual History

Abshire is a certified professional dog trainer and
K-9 consultant and a resident of Louisiana. He is the
owner and president of USK9, a Louisiana corporation with its principal place of business in Louisiana.
USK9 trains and sells police service dogs to various
government and law enforcement agencies as well as
service dogs to private individuals.
Pannell was a K-9 handler with the Rosenburg
Police Department who was assigned to the Fort Bend
County Narcotics Task Force. In 2013, the Fort Bend
County Sheriff’s Office purchased a police dog, Rik,
from Abshire. Later that year, Pannell attended the
USK9 training academy with Rik in Louisiana. On
September 27, 2013, USK9 certified that Pannell had
completed the three-week handler course.
Pannell alleges that, while working with Rik on
the task force, Rik exhibited ongoing behavioral issues
such as spinning, heavy panting, crying, uncontrollable
shaking, and anxiety. Pannell and Rik returned to
the USK9 training facility in Louisiana multiple times
in an effort to correct the behavioral issues. Pannell
exchanged text messages and calls with his supervisors to request assistance with Rik’s behavioral
issues.
On July 21, 2016, Pannell sent a text message to
his immediate supervisor, stating, “if I’m done with
this [daily assignment] before you leave can we talk

App.5a
at the office? I think I’m turning in my leash. I can’t
handle this dog anymore. I don’t enjoy coming to work
anymore [because] of the stress level it’s causing me.”
Pannell alleges that his request was misconstrued as
a resignation and that he was subsequently reassigned
to the Rosenburg Police Department as a patrol officer.
On July 29, 2016, Pannell filed a written grievance
with the City of Rosenburg. On August 11, 2016, Dallis
Warren, who was then Chief of Police of the Rosenburg
Police Department, prepared a written memorandum
addressing the issues raised in Pannell’s grievance.
In the memo, Warren stated, among other things, that
he spoke with Abshire about Pannell’s problems with
Rik on August 9, 2016, and that Abshire’s “stated
assessment was that Pannell was not a good fit as a
K9 handler and was using inconsistent correction
techniques [which] has led to the behaviors in K9 Rik.”
Pannell alleges that Chief Warren later republished
this defamatory statement when he circulated the
memorandum.
B.

Procedural History

On August 8, 2017, Pannell sued Abshire, USK9,
City of Rosenburg, Rosenburg Police Department, Fort
Bend County, Fort Bend County Sherriff’s Office, Dallis
Warren, Jeremy Eder, Josh Dale, and Bryan Baker,
alleging causes of action for defamation, libel, slander,
common law defamation per se, common law libel per
se, common law slander per se, defamation per quod,
libel per quod, and slander per quod. Pannell alleged
that all defendants “published a defamatory statement
concerning [Pannell] . . .asserting as fact that [Pannell]
was an unqualified K9 handler. . . ” and that this led
his reassignment which he described as a demotion.

App.6a
On September 25, 2017, Abshire and USK9 jointly
filed a special appearance asking the trial court to
dismiss Pannell’s claims against them because he failed
to plead any facts that would subject them to the
jurisdiction of a Texas court.
On October 20, 2017, Abshire and USK9 amended
their special appearance to include an affidavit from
Abshire and noticed the special appearance for hearing
on November 17, 2017. In his affidavit, Abshire stated
that (1) he is a resident of Louisiana and the President of USK9, whose principal place of business is
Louisiana; (2) he trains law enforcement officers and
their dogs at his training facility in Louisiana; (3) he
does not do any marketing or recruiting of business
in Texas; (4) any communication that Abshire had with
Texas law enforcement occurred when Texas officers
called USK9 in Louisiana; (5) Abshire and USK9
operate a website for advertising purposes only that
describes the company and services and, provides
contact information and an email form that can be
completed on line and forwarded via the website; and
(6) Abshire and USK9 do not enter into any contracts,
transact any business, or interact via the website. In
their pleading, Abshire and USK9 included a motion
to sever requesting that the trial court sever the
claims against them if the court first sustained their
special appearance.
On November 16, 2017, Pannell filed an amended
petition adding the following two paragraphs:
19. Defendant Roger Abshire and Defendant
USK9 Unlimited, Incorporated conduct business in Texas. Defendant Roger Abshire and
Defendant USK9 Unlimited, Incorporated
receive payments from various government

App.7a
and police agencies from around the State of
Texas. Defendant Roger Abshire and Defendant USK9 Unlimited, Incorporated have
been sold defective canine/K9’s in Matagorda
County, Texas which did bite people. Defendant Roger Abshire and Defendant USK9
Unlimited, Incorporated received and trained
police officers from Texas including officers
in Fort Bend county and the surrounding
counties. Defendant Roger Abshire and Defendant USK9 Unlimited, Incorporated did make
phone calls and statements targeting a local
audience in Texas regarding Plaintiff Justin
Pannell as further delineated herein.
[...]
42. Defendant Roger Abshire and Defendant
USK9 Unlimited, Incorporated have trained
several of Defendant Rosenberg Police Department’s K9 handlers as well as other Fort Bend
K9 handlers. Statements made by Defendant
Roger Abshire and Defendant USK9 Unlimited, Incorporated to the chain of command,
such as Defendant Police Chief Warren, have
bearing on the decision since Defendant
Roger Abshire and Defendant USK9 Unlimited, Incorporated are viewed as an authority
to rate K9 handlers. A statement made telephonically to a local police chief of a city in
the State of Texas, in addition to the history
and relationship of having sold K9’s and
trained officers from the local police department, demonstrates repeated and continual
contact availing oneself to the State of Texas
regarding K9 issues or actions related to the

App.8a
K9 services committed by Defendants Abshire
and US K9 Unlimited.
On November 16, 2017, Pannell filed a response
to Abshire and USK9’s special appearance. Pannell
contended that Abshire and USK9 purposefully availed
themselves of the privilege of conducting activities
within Texas. Citing TV Azteca, S.A.B. de C.V. v. Ruiz,
490 S.W.3d 29 (Tex. 2016), Pannell argued that the
trial court could exercise specific jurisdiction over
Abshire and USK9 because Pannell’s suit arose from,
and was related to, Abshire and USK9’s contacts
with Texas, and that the incident giving rise to his
suit was a result of Abshire and USK9’s defamatory
statements regarding Pannell to Chief Warren. Pannell
further argued that the trial court could assert general jurisdiction over Abshire and USK9 because they
have affiliations with Texas that are so continuous and
systematic as to render Abshire and USK9 “at home”
in Texas. Pannell contended that the trial court’s
assertion of jurisdiction over Abshire and USK9
would not offend traditional notions of fair play and
substantial justice and would be consistent with the
constitutional requirement of due process. Pannell
requested that the trial court overrule Abshire and
USK9’s special appearance or, in the alternative, allow
discovery, and that it deny Abshire and USK9’s motion
to sever. The trial court permitted Pannell to conduct
limited discovery related to the issue of jurisdiction.
The hearing on Abshire and USK9’s special
appearance, which had been previously reset several
times, was reset to November 2, 2018. At the hearing,
the trial court granted Pannell additional time to
conduct discovery and continued the hearing. On
November 9, 2018, the trial court entered an order

App.9a
severing Pannell’s claims against all other defendants,
assigning a new cause number consisting only of Pannell’s claims against Abshire and USK9, and transferring the remaining claims against all other defendants
to Fort Bend County.
Abshire was deposed on December 7, 2018. On
March 4, 2019, Pannell filed a second amended petition
in which he deleted paragraphs 19 and 42 of his first
amended petition and added the following sentence
to paragraph 31 related to Abshire’s alleged defamatory statements about Pannell to Chief Warren:
When Roger Abshire and USK9 Unlimited
made these comments to Chief Warren
regarding Officer Pannell, Defendant Abshire
and Defendant USK9 Unlimited either knew
or should have known that the comments
were directly linked to Plaintiff Pannell’s
career in Texas, and that if the statements
injure Plaintiff Pannell in Texas, then
Defendant Abshire and Defendant USK9
would be exposed to Texas Jurisdiction.
Pannell also added the following paragraph:
32. Defendant Roger Abshire personally
conducts canine training courses in Texas
for various entities and individuals. Defendant
Abshire and Defendant USK9 have conducted
these in person training courses in Texas
for over a decade, and for several years
before the underlying alleged defamatory
statements. Defendant Roger Abshire and
Defendant USK9 have conducted business
with dozens of police officers, police agencies
and private individuals in Texas over the

App.10a
past 15 years. Defendant Abshire and
Defendant USK9 have produced invoices
reflecting all the business conducted in Texas
and with Texas entities and individuals.
These invoices span approximately 15 years.
The deposition of Roger Abshire reflects all
the various contacts he has with the State
of Texas, Texas citizens, Texas entities, and
canine related business. Mr. Abshire made
comments about Plaintiff Pannell within
the scope of the business activities Defendants Abshire and USK9 partake in which
avail them to Jurisdiction in Texas.
To his amended petition, Pannell attached USK9
invoices and a transcript of Abshire’s deposition.
On March 8, 2019, Pannell filed a second response
to Abshire and USK9’s special appearance. He argued
that the trial court could properly exercise specific
jurisdiction over Abshire and USK9 because (1) they
have conducted business in Texas for nearly fifteen
years; (2) Abshire’s defamatory statements are directly
tied to the business activities which he and USK9 have
conducted in Texas; (3) Pannell’s suit arose from and
was related to Abshire and USK9’s contacts with Texas,
and the incident giving rise to the suit was a result
of their defamatory statements regarding Pannell’s
canine-handling skills; (4) Abshire and USK9 sold the
K9 used by Pannell to the Rosenburg Police Department, a Texas police agency, and Abshire and USK9
trained Pannell how to be a K9 handler, and their
defamatory statements regarding Pannell’s skills were
tied to their business being conducted in Texas. Pannell
further asserted that although Abshire is not a resident
of Texas and USK9 does not have its principal place

App.11a
of business in Texas, their contacts are so continuous
and systematic that the assertion of general jurisdiction over them was warranted.
On March 28, 2019, Abshire and USK9 filed a
reply in support of their special appearance. With
regard to their assertion that specific jurisdiction did
not exist, Abshire and USK9 pointed to Abshire’s testimony that (1) his business is incorporated in
Louisiana and he has never been located elsewhere;
(2) Abshire houses the K9s that he trains and sells at
his facility in Louisiana; (3) the dogs are not shipped
to his clients; (4) Abshire offers voluntary training to
handlers that is conducted at his facility in Louisiana;
(5) his marketing consists only of a website that does
not claim to service any specific geographical region; (6)
Abshire’s standard business contracts all contain a
forum clause stating that all grievances must be
addressed in Louisiana. In support of their assertion
that general jurisdiction did not exist, Abshire and
USK9 pointed to Abshire’s testimony that he recalled
only one business trip to Texas within the past five
years during which he spoke for a couple of days to
various law enforcement agencies regarding dog
training. When he was shown an invoice from 2012
reflecting two trips for training scheduled in Texas,
Abshire did not recall conducting any training outside of his Louisiana facility. When he was shown an
invoice reflecting that he delivered a K9 to Texas,
Abshire testified that, if he did, it would have been an
exception for USK9 to do so. Abshire and USK9
further asserted that USK9 does business outside of the
United States as well as with numerous other states
outside of Louisiana, and that they have not engaged
in targeted marketing of Texas, do not regularly engage

App.12a
in shipping products or performing services in Texas,
and do not maintain any offices in Texas.
On March 29, 2019, the trial court held a hearing
on Abshire and USK9’s special appearance. The trial
court invited the parties to submit evidence regarding who initiated the telephone call between Abshire
and Chief Warren as well as any case law addressing
whether a single phone call could establish specific
jurisdiction. In response, Abshire and USK9 filed a
sworn affidavit by Chief Warren attesting that “the
communications between Mr. Abshire and myself
referenced within the allegations of [Pannell’s] petition
would have been initiated by telephone, by myself,
and at my own initiative.”
On April 24, 2019, Pannell filed a sur-reply to
which he attached several pages from USK9’s website
and a copy of the Texas Supreme Court’s opinion in
TV Azteca v. Ruiz. On June 25, 2019, Pannell filed
a motion to compel discovery, a motion to strike
objections, a motion to deem requests for admissions
admitted, and a motion for sanctions. On August 22,
2019, Pannell filed a motion asking the trial court to
rule that the special appearance had been waived as
a result of the prior severance and transfer of the
claims against the other defendants.
On August 23, 2019, the trial court continued the
special appearance hearing. The court found that the
special appearance had not been waived. Based upon
its review of the TV Azteca opinion, the trial court
denied Abshire and USK9’s special appearance. The
trial court signed an order denying the special appearance on August 27, 2019. This interlocutory appeal
followed.

App.13a
Special Appearance
Abshire and USK9 contend that the trial court
erred in denying their special appearance because (1)
they did not waive their special appearance; (2) the
court lacks general jurisdiction over them because
they are Louisiana residents; and (3) the court lacks
specific jurisdiction over them because there is no
evidence that either Abshire or USK9 purposefully
availed themselves of Texas to commit any tortious
act.
A.

Waiver

Texas Rule of Civil Procedure 120a(2) provides:
“Any motion to challenge the jurisdiction provided
for herein shall be heard and determined before a
motion to transfer venue or any other plea or pleading
may be heard.” Tex. R. Civ. P. 120a(2). A party waives
his special appearance if he seeks “affirmative relief
or invoke[s] the trial court’s jurisdiction on any question
other than the court’s jurisdiction prior to the trial
court ruling on the special appearance.” Dawson–Austin
v. Austin, 968 S.W.2d 319, 322 (Tex. 1998); Xenos Yuen
v. Fisher, 227 S.W.3d 193, 199 (Tex. App.—Houston
[1st Dist.] 2007, no pet.).
Generally, if a defendant obtains a hearing on a
motion that seeks affirmative relief unrelated to his
special appearance before he obtains a hearing and
ruling on his special appearance, he has entered a
general appearance and thus waived any challenge
to personal jurisdiction. Dawson–Austin, 968 S.W.2d
at 322; First Oil PLC v. ATP Oil & Gas Corp., 264
S.W.3d 767 (Tex. App.—Houston [1st Dist.] 2008, pet.
denied). The test for whether a party has made a
general appearance by obtaining a hearing on another

App.14a
motion before obtaining a ruling on his special appearance is whether the other motion sought “affirmative
relief inconsistent with [his] assertion that the district
court lacked jurisdiction[.]” Dawson–Austin, 968 S.W.2d
at 323.
Pannell contends, as he did below, that Abshire
and USK9 waived their special appearance because
they participated in the trial court proceedings when
they sought a ruling on their co-defendants’ motion
to sever. He argues that although Abshire and USK9
did not obtain a ruling on their own motion to sever
prior to the trial court denying their special appearance,
they indirectly obtained the same affirmative relief
by requesting a hearing on their co-defendants’ motion
to sever and transfer venue. In support of his argument,
Pannell attached as an exhibit to his appellate brief an
electronic docket entry that appears to list Abshire
and USK9’s counsel as the requesting party for hearings on November 2, 2018, for both a special appearance and a severance. Pannell contends that this action,
coupled with the fact that Abshire and USK9 agreed
to the form and substance of the trial court’s order
severing their co-defendants and transferring their case
to Fort Bend County, was inconsistent with Abshire
and Pannell’s special appearance. Thus, he argues,
the trial court erred in concluding that they had not
waived their special appearance.
Our review of the record reveals that Abshire
and USK9 only requested a hearing on their own first
amended special appearance and motion to sever.
The record also shows that the signature of counsel
for Abshire and USK9 that appears (by permission)
on the trial court’s November 8, 2018 order severing
the claims against Abshire and USK9 from the claims

App.15a
against the other defendants and granting the other
defendant’s motion to transfer venue appears under
the heading, “APPROVED AS TO FORM.” There is
nothing in the record indicating that Abshire or
USK9, or their counsel, approved or agreed to the
substance of the order.
More importantly, such actions do not constitute
a general appearance because Abshire and USK9 did
not seek any affirmative relief that was inconsistent
with their assertion that the trial court lacked jurisdiction over Pannell’s claims against them. Dawson–
Austin, 968 S.W.2d at 323. Rather, the trial court
severed Pannell’s claims against Abshire and USK9
solely for the purpose of transferring the claims
against the other defendants. And, Abshire and USK9
only requested a severance of their claims after the
trial court sustained their special appearance: “If
this Court sustains Defendants ABSHIRE and USK9’s
Special Appearance, then Defendants ABSHIRE and
USK9 ask this court to sever the claims against
Defendants ABSHIRE and USK9 into a new cause of
action[.]” See id.; see also Xenos Yuen, 227 S.W.3d at
199 (concluding that defendant did not enter general
appearance by filing motion to set aside default judgment, in part because although motion sought affirmative relief from trial court in form of sanctions,
defendant expressly moved for sanctions “subject to”
resolution of special appearance).
The trial court did not err in concluding that
Abshire and USK9 did not waive their special appearance.

App.16a
B.

Standard of Review and Applicable Law

Whether a court can exercise personal jurisdiction
over a nonresident defendant is a question of law,
and thus we review de novo the trial court’s determination of a special appearance. Kelly v. Gen. Interior
Constr., Inc., 301 S.W.3d 653, 657 (Tex. 2010); Moki
Mac River Expeditions v. Drugg, 221 S.W.3d 569, 574
(Tex. 2007). “However, the trial court frequently must
resolve questions of fact before deciding the jurisdiction question.” BMC Software Belg., N.V. v. Marchand,
83 S.W.3d 789, 794 (Tex. 2002). When, as here, “a trial
court does not issue findings of fact and conclusions
of law with its special appearance ruling, all facts
necessary to support the judgment and supported by
the evidence are implied.” Id. at 795.
Texas courts may exercise personal jurisdiction
over a nonresident if the long-arm statute authorizes
it, consistent with federal and state constitutional
due process guarantees. Moncrief Oil Int’l Inc. v. OAO
Gazprom, 414 S.W.3d 142, 149 (Tex. 2013). Personal
jurisdiction over a nonresident is consistent with due
process when the nonresident has established minimum contacts with the forum state and the exercise
of jurisdiction comports with traditional notions of
fair play and substantial justice. Moki Mac, 221 S.W.3d
at 575 (quoting Int’l Shoe Co. v. Washington, 326 U.S.
310, 316 (1945)). In most cases, the exercise of jurisdiction over a nonresident defendant will not conflict
with notions of fair play and substantial justice if the
nonresident has minimum contacts with the forum.
Moncrief Oil, 414 S.W.3d at 154–55.
“A defendant establishes minimum contacts with a
state when it ‘purposefully avails itself of the privilege
of conducting activities within the forum state, thus

App.17a
invoking the benefits and protections of its laws.’”
Retamco Operating, Inc. v. Republic Drilling Co., 278
S.W.3d 333, 338 (Tex. 2009) (quoting Hanson v. Denckla, 357 U.S. 235, 253 (1958)). The Texas Supreme Court
has identified three principles to guide our analysis
of whether a nonresident has purposefully availed itself
of the privilege of conducting activities in Texas. See TV
Azteca, 490 S.W.3d at 37–38. First, only the defendant’s
contacts with the forum are relevant, as a nonresident
should not be called to court in a jurisdiction solely
as a result of the unilateral activity of another party.
Id. at 38 (quoting Michiana Easy Livin’ Country, Inc.
v. Holten, 168 S.W.3d 777, 785 (Tex. 2005)). Second,
the defendant’s acts must be purposeful, as opposed
to random, isolated, or fortuitous. Id. Third, the
defendant must seek some benefit, advantage, or
profit by availing itself of the jurisdiction. Id.
A defendant’s contacts can vest a court with either
specific or general jurisdiction. BMC Software, 83
S.W.3d at 795. Specific jurisdiction requires that the
claims at issue arise from or relate to the defendant’s
purposeful contacts with Texas. Kelly, 301 S.W.3d at
658. General jurisdiction, on the other hand, is predicated on the defendant’s “continuous and systematic”
contacts that render it “essentially at home in the forum
State,” irrespective of whether his alleged liability
arises from those contacts. TV Azteca, 490 S.W.3d at
37 (quoting Daimler AG v. Bauman, 571 U.S. 117, 127
(2014)). Because general jurisdiction permits a court
to exercise personal jurisdiction over a nonresident
for claims not directly linked to his contacts with the
state, a general jurisdiction inquiry requires a more
demanding minimum contacts analysis with a “substantially higher threshold.” PHC-Minden, L.P. v.

App.18a
Kimberly-Clark Corp., 235 S.W.3d 163, 168 (Tex. 2007).
And although there is no precise formula for the
number of contacts necessary to establish general
jurisdiction, it is clear that the requisite level is substantial. Id. at 167.
When a defendant challenges the exercise of personal jurisdiction in a special appearance, the plaintiff
and the defendant bear shifting burdens. Kelly, 301
S.W.3d at 658. The initial burden is on the plaintiff
to plead sufficient allegations to establish jurisdiction over the defendant. Id. After the plaintiff meets
its initial burden, the burden shifts to the defendant to
negate all bases of jurisdiction alleged by the plaintiff.
Id.
“The defendant can negate jurisdiction on either
a factual or a legal basis.” Id. at 659. To negate jurisdiction on a factual basis, the defendant can “present
evidence that it has no contacts with Texas, effectively disproving the plaintiff’s allegations.” Id.
Alternatively, the defendant can negate jurisdiction
on a legal basis by showing that “even if the plaintiff’s
alleged facts are true,” (1) the evidence is legally
insufficient to establish jurisdiction; (2) the defendant’s
contacts with Texas do not amount to purposeful availment; (3) for specific jurisdiction, the plaintiff’s claims
do not arise from the defendant’s contacts; or (4) the
exercise of jurisdiction would offend traditional notions
of fair play and substantial justice. Id.
C.

General Jurisdiction

“For an individual, the paradigm forum for the
exercise of general jurisdiction is the individual’s
domicile; for a corporation, it is an equivalent place,
one in which the corporation is fairly regarded as at

App.19a
home.” Bauman, 571 U.S. at 137 (quoting Goodyear
Dunlop Tires Operations, S.A. v. Brown, 564 U.S. 915,
924 (2011)). Even when a defendant’s contacts may
be continuous and systematic, they are insufficient to
confer general jurisdiction if they fail to rise to the
level of rendering a defendant essentially “at home”
in the forum state. See Old Republic Nat’l Title Ins.
Co. v. Bell, 549 S.W.3d 550, 565 (Tex. 2018).
Abshire contends that the trial court lacks general jurisdiction over him because he is a Louisiana
resident and his contacts with Texas are not continuous
and systematic but, rather, irregular and sporadic.
USK9 similarly contends that it is incorporated and
has its principal place of business in Louisiana, and
its only contacts with Texas consist of fortuitous
contacts initiated by potential customers who happen
to reside in Texas.
In his response to the special appearance, Pannell
argued that although Abshire and USK9 are not
residents of Texas, they have “affiliations with Texas
that are so continuous and systematic as to render
them ‘at home’ in Texas.” Specifically, Pannell asserts
that Abshire and USK9 have sold dozens of canines
to police agencies and private individuals in Texas
and that they have conducted canine training courses
in Texas in person for over ten years.
With regard to his first assertion, Pannell argues
that “[d]ue to Appellants’ high volume of sales to
Texas, Texas serves as Appellants’ principal place of
business.” Pannell points to USK9’s website which
lists twenty-six Texas law enforcement agencies that
are among USK9’s clients. However, the website also
lists a total of more than 170 law enforcement agencies
throughout the United States, in addition to eight

App.20a
correctional facilities (only one of which is in Texas),
ten international law enforcement agencies, and nine
state agencies (only one of which is in Texas). Pannell
also points to USK9 invoices showing that a total of
thirty-five Texas-based clients purchased forty-three
dogs and training services from USK9 between 2012
to 2018. USK9’s website, however, also states that it
“has thousands of satisfied customers at the local,
state, and federal levels of government.” There is no
evidence to suggest that Texas makes up most of or
even a substantial portion of USK9’s business. Furthermore, the Texas Supreme Court has explained
that courts must focus on the particular nature of the
sales and not simply the volume. See Am. Type Culture
Collection, Inc. v. Coleman, 83 S.W.3d 801, 808 (Tex.
2002) (disagreeing with court of appeals’s characterization of defendant’s volume of sales in Texas, which
accounted for more than 3.5 percent of total annual
sales and 5 percent of total U.S. sales, as “bedrock”
fact supporting jurisdiction).
With regard to Pannell’s assertion that Abshire
and USK9 have conducted canine training courses in
Texas in person for over ten years, the evidence
shows that Abshire, on behalf of USK9, took four
trips to Texas. Abshire testified that years ago he
taught a patrol dog training in Temple, Texas, that
lasted two days. In 2015, Abshire took a two-day
business trip to Killeen, Texas, at the police department’s invitation, to teach patrol dog functions to law
enforcement officers. Abshire also testified that he
provided on-site refresher training, at the request of the
Dallas County Sheriff’s Department, which consisted
of one trip in 2012 and one trip in 2013. These four
trips spread over a number of years do not constitute

App.21a
continuous and systematic contacts with Texas sufficient to confer general jurisdiction. See Old Republic
Nat’l Title Ins., 549 S.W.3d at 565.
Further, as the Texas Supreme Court has
explained:
General jurisdiction is premised on the notion
of consent. That is, by invoking the benefits
and protections of a forum’s laws, a nonresident defendant consents to being sued
there. When a nonresident defendant purposefully structures transactions to avoid the
benefits and protections of a forum’s laws,
the legal fiction of consent no longer applies.
Coleman, 83 S.W.3d at 808. Here, the evidence shows
that Abshire and USK9 purposefully structure their
transactions to avoid the benefits and protections of
Texas laws. In his deposition, Abshire testified that
USK9 does not ship its dogs to a client in Texas or
elsewhere; rather, the client comes to the USK9’s
facility in Louisiana to take possession of the dog.
Abshire testified that he might have shipped a dog to
a private client but that, if he had done so, it would
have been an exception to the normal rule of how he
conducts business. USK9 offers training to handlers
which is almost always conducted at USK9’s Louisiana
facility. Abshire also testified that USK9 includes a
provision in its standard customer contract that
requires all grievances to be resolved in Louisiana.
Because the evidence does not support a finding
that Abshire’s and USK9’s contacts with Texas were
so substantial that they were “essentially at home”
in Texas, we conclude that the trial court could not
exercise general jurisdiction over them.

App.22a
D. Specific Jurisdiction
Abshire and USK9 contend that the trial court
lacks specific jurisdiction over them because there is
no evidence that Abshire or USK9 purposefully availed
themselves of Texas to commit any tortious act.
For Texas to exercise specific jurisdiction over
Abshire and USK9, Pannell must show that his cause
of action arises from or relates to Abshire and USK9’s
purposeful contacts with the state. See Cornerstone
Healthcare Grp. Holding, Inc. v. Nautic Mgmt. VI, L.P.,
493 S.W.3d 65, 71 (Tex. 2016); TV Azteca, 490 S.W.3d
at 37 (quoting Spir Star v. Kimich, 310 S.W.3d 868,
972 (Tex. 2010)). “A claim arises from or relates to a
defendant’s forum contacts if there is a ‘substantial
connection between those contacts and the operative
facts of the litigation.’” TV Azteca, 490 S.W.3d at 52
(quoting Moki Mac, 221 S.W.3d at 585); see also Walden
v. Fiore, 571 U.S. 277, 284 (2014) (“For a State to
exercise jurisdiction consistent with due process, the
defendant’s suit-related conduct must create a substantial connection with the forum State.”). Our specific
jurisdiction inquiry “focuses ‘on the relationship among
the defendant, the forum, and the litigation.’” Walden,
571 U.S. at 284; Moki Mac, 221 S.W.3d at 575–76
(citations and internal quotation marks omitted).
Thus, “the relationship must arise out of contacts that
the ‘defendant himself’ creates with the forum State,”
Walden, 571 U.S. at 284, and the “analysis looks to
the defendant’s contacts with the forum State itself,
not the defendant’s contacts with persons who reside
there,” id. at 285 (citing Int’l Shoe, 326 U.S. at 319).

App.23a
1. Purposeful Contacts
Pannell relies heavily on the Texas Supreme
Court’s opinion in TV Azteca v. Ruixz to support his
assertion that Abshire and USK9 are subject to specific jurisdiction. There, a Mexican recording artist
residing in South Texas filed a Texas defamation action
against two Mexican television broadcasters and a
TV Azteca news anchor and producer. TV Azteca, 490
S.W.3d at 35. The defendants filed special appearances,
which the trial court denied. The court of appeals
affirmed that denial. Id. at 35–36. The Texas Supreme
Court affirmed the judgment of the court of appeals
and held that the defendants purposefully availed
themselves of the privilege of conducting activities in
Texas. Id. at 52.
In reaching its conclusion, the Court focused on
the source of the plaintiff’s claims—the television
broadcast—and the allegations and evidence that (1)
the defendants “directed a tort” at the plaintiff in
Texas; (2) the defendants broadcast allegedly defamatory statements in Texas; (3) the defendants knew
the statements would be broadcast in Texas; and (4)
the defendants intentionally targeted Texas through
those broadcasts. See id. at 42–43. The Court concluded that the evidence of the first three contentions
did not establish purposeful availment but that the
evidence of the fourth contention did. Id. at 43.
In rejecting the plaintiff’s first contention, the
Court stated that “the mere fact that [the defendants]
directed defamatory statements at a plaintiff who lives
in and allegedly suffered injuries in Texas, without
more, does not establish specific jurisdiction over
[them].” Id. at 43 (“[C]ourts cannot base specific
jurisdiction merely on the fact that the defendant

App.24a
‘knows that the brunt of the injury will be felt by a
particular resident in the forum state.’”) (quoting Michiana, 168 S.W.3d at 788). The court further explained
that “[t]here is a subtle yet crucial difference between
directing a tort at an individual who happens to live
in a particular state and directing a tort at that
state.” Id. Thus, the fact that Pannell lives and was
allegedly injured in Texas is not irrelevant to the
jurisdictional inquiry, but “it is relevant only to the
extent that it shows that the forum state was ‘the
focus of the activities of defendant.” See id. (emphasis
in original).
The Court then considered the evidence that the
defendants’ broadcasts, though originating in Mexico,
reached Texas residents through their television sets
in their Texas homes. See id. at 44. The Court emphasized that the “touchstone of jurisdictional due process
is ‘purposeful availment,’” and that “a defendant
purposefully avails itself of the benefits of activities
in the state only “when its contacts are purposeful
rather than random, fortuitous, or attenuated, and it
seeks “some benefit, advantage, or profit by availing
itself of the jurisdiction.” Id. at 45 (quoting Michiana,
168 S.W.3d at 784 and Montcrief Oil, 414 S.W.3d at
151 (internal quotation omitted)). The Court concluded
that “the mere fact that the signals through which
[the defendants] broadcast their programs in Mexico
travel[ed] into Texas was insufficient to support specific jurisdiction because that fact did not establish
that [the defendants] purposefully directed their activities at Texas.” Id. Similarly, Abshire’s alleged defamatory statement to someone in Texas is insufficient
by itself to support specific jurisdiction over Abshire
and USK9.

App.25a
The Court next addressed the fact that the defendants knew that their television broadcasts traveled
into Texas. See id. at 44–46. The Court stated that
“[w]hile a defendant’s knowledge that its actions will
create forum contact may support a finding that the
defendants purposefully directed those actions at the
forum, that knowledge alone is not enough.” Id. at 46.
“Instead, evidence of ‘additional conduct’ must establish that the broadcaster had ‘an intent or purpose to
serve the market in the forum State.”” Id. at 46–47
(quoting Moki Mac, 221 S.W.3d at 577). Applying
this reasoning, even if Abshire knew that he was
delivering his comments to someone in Texas, that fact
alone does demonstrate an intent or purpose through
that phone call to seek some benefit, advantage, or
profit in Texas.
Finally, the Court examined evidence of the defendants’ additional conduct showing that they intended
to serve the Texas market with their broadcasts. See
id. at 47. The Court stated that “a plaintiff can establish that a defamation defendant targeted Texas by
relying on other ‘additional conduct’ through which the
defendant ‘continuously and deliberately exploited’ the
Texas market.” Id. The Court noted that the plaintiff
had submitted evidence that the defendants “made
substantial and successful efforts to benefit from the
fact that the signals traveled into Texas as well as
additional efforts to promote their broadcasts and
expand their Texas audience.” See id. at 49. The
plaintiff’s three categories of evidence demonstrated
that the defendants (1) physically entered into Texas
to produce and promote their broadcasts; (2) derived
substantial revenue and other benefits by selling
advertising time to Texas businesses; and (3) made

App.26a
substantial and successful efforts to distribute their
programs and increase their popularity in Texas,
including the programs in which they allegedly
defamed the plaintiff. See id. at 49–50. The Court concluded that this evidence showed that the defendants
intentionally targeted Texas through those broadcasts
and, in doing so, purposefully availed themselves of
the benefits of conducting activities in Texas. See id.
at 52.
Pannell argues that Abshire and USK9 similarly
“targeted” Texas because “Abshire’s defamatory statement targeted Texas and, itself, reveals Abshire’s and
USK9’s purpose to profit from Texas.” This is, so, he
argues, because “[t]he statement’s only conceivable
purpose—in light of the fact that Abshire annually
certified Pannell and never said a single negative
word about Pannell’s handling skills in over six
years—was to shift the blame to Pannell for his dog’s
poor performance in an attempt to preserve Appellant’s
Texas business relationships.” Pannell, however, points
to no evidence to support his assertion. A plaintiff’s
speculation cannot support a finding of jurisdiction.
See 2007 E. Meadows, L.P. v. RCM Phoenix Partners,
L.L.C., 310 S.W.3d 199, 207 (Tex. App.—Dallas 2010,
pet. denied) (noting speculation does not support
haling nonresident defendant to court in Texas); see
also Buswell v. The GWSPI Co. LLC, No. 04–15–00398–
CV, 2015 WL 5837851, at *5 (Tex. App.—San Antonio
Oct. 7, 2015, no pet.) (mem. op.) (stating that trustee’s
speculation that claims examiner profited from activities in Texas by remaining employed based on outcome
of her investigation was “not evidence”). Further, it
does not appear that Pannell made this suggestion to
the trial court in any of his petitions, his responses to

App.27a
the special appearance, or during the August 23, 2019
hearing. See Michiana, 168 S.W.3d at 782 (stating
that if no evidence is presented during special appearance hearing, “the appeal should be decided on the
clerk’s record alone”).
Pannell also asserts that the TV Azteca Court
found jurisdiction was proper under the (1) “directeda-tort” test; (2) subject-and-sources test; and (3) stream
of commerce theory. He argues that here, like in TV
Azteca, jurisdiction exists under all of these tests.
Contrary to Pannell’s assertion, the TV Azteca
court rejected the “directed-a-tort” test as a basis for
jurisdiction in that case, concluding that “the mere
fact that [the defendants] directed defamatory statements at a plaintiff who lives in and allegedly suffered
injuries in Texas, without more, does not establish
specific jurisdiction over [the defendants].” 490 S.W.3d
at 43. Here, there is no evidence that Abshire directed
a tort at Texas. Rather, Abshire’s alleged defamatory
statement was directed to Chief Warren who happened
to be in Texas at the time he called Abshire. This is
not evidence that the state of Texas was the focus of
Abshire’s alleged tortious activity. See id. (noting
crucial difference exists between directing tort at
individual who happens to be in forum state and
directing tort at that state).
The TV Azteca Court also considered and rejected
the “subject-and-sources” test as a basis for jurisdiction
over the defendants. See id. at 48. Under that test, a
plaintiff must show that the subject matter of the
alleged defamatory broadcast and the sources relied
upon are in the forum state. See id. at 47. Noting
that the “subject-and-sources” test is consistent with
the United States Supreme Court’s approach in Calder

App.28a
v. Jones, 465 U.S. 783 (1984) the Court agreed with
the defendants “that these broadcasts did not concern
the Texas activities of a Texas resident or describe
activities having a connection with Texas, as the subject-and-sources test requires.” Id. at 48. Notably, the
Texas Supreme Court in Michiana rejected the idea
that Calder—which involved a publication that sold
over 600,000 copies in the forum state—would come
out the same way if “the defamation had occurred in
a single unsolicited phone call a nonresident answered
from a single private individual in the forum state.”
Michiana, 168 S.W.3d at 789. Here, the fact that Pannell (the subject of the alleged defamatory statement)
resides in Texas is insufficient to subject Abshire and
USK9 to jurisdiction. TV Azteca, 490 S.W.3d at 43
(“[C]ourts cannot base specific jurisdiction merely on
the fact that the defendant ‘knows the brunt of the
injury will be felt by a particular resident in the
forum state.’”).
Lastly, Pannell contends that jurisdiction is
proper under the stream-of-commerce theory applied
in product liability cases. Under that theory of personal
jurisdiction, “a nonresident who places products into
the ‘stream of commerce’ with the expectation that
they will be sold in the forum state” may be subject
to personal jurisdiction in the forum state. Id. at 46
(internal quotations omitted). However, mere knowledge that the product will be sold in the forum state is
not enough; rather, “additional conduct” must demonstrate “an intent or purpose to serve the market in
the forum [s]tate.” Id. The TV Azteca Court stated
that, “[i]n the same way, we conclude that a broadcaster’s mere knowledge that its programs will be
received in another jurisdiction is insufficient to estab-

App.29a
lish that the broadcaster purposefully availed itself
of the benefits of conducting activities in that jurisdiction. Instead, evidence of ‘additional conduct’ must
establish that the broadcaster had ‘an intent or purpose to serve the market in the forum State.’” Id.
The Court concluded that the defendants’ efforts to
advertise and promote the allegedly defamatory broadcast constituted the “additional conduct” necessary to
support a finding of specific jurisdiction. See id. at 55.
Pannell argues that, like in TV Azteca, there is
evidence of additional conduct in this case because
Abshire generates income from Texas and “maintained
communication with his Texas clients and traveled to
Texas when necessary to cultivate more Texas-related
business.” However, the TV Azteca Court specifically
found that the evidence of additional conduct established that the defendants “purposefully availed themselves of Texas in connection with their actionable
conduct (the allegedly defamatory broadcasts).” Id. at
55 (emphasis added). The evidence upon which Pannell
relies does not establish that Abshire or USK9 purposefully availed themselves of Texas in connection
with Abshire’s alleged defamatory statement about
Pannell to Chief Warren.
2. “Arising from or Related to”
A plaintiff must also show that his claims arise
from or relate to the defendant’s purposeful activities
in the state. Id. at 53. “For specific-jurisdiction purposes, purposeful availment has no jurisdictional
relevance unless the defendant’s liability arises from
or relates to the forum contacts.” Id. at 52 (quoting
Moki Mac, 221 S.W.3d at 579). A claim arises from or
relates to a defendant’s forum contacts if there is a

App.30a
“substantial connection between those contacts and
the operative facts of the litigation.” Id. (quoting Moki
Mac, 221 S.W.3d at 585). In making this determination,
we consider “what the claim is principally concerned
with, whether the contacts will be the focus of the
trial and consume most if not all of the litigation’s
attention, and whether the contacts are related to
the operative facts of the claim.” Id. at 53.
Here, Pannell’s claim concerns an alleged statement made by Abshire during a single phone call
between Abshire and Warren. The phone call was
initiated by Chief Warren, not Abshire. The general
business contacts that Abshire and USK9 have in
Texas would not be the focus of the trial, nor would
they consume most if not all of the litigation’s
attention. Abshire and USK9’s general business contacts are not related to the operative facts of Pannell’s
defamation claim. In sum, there is no evidence to
support a finding that Pannell’s claim arises from or
relates to any of Abshire’s or USK9’s alleged purposeful
activities in Texas.
Because the evidence does not support a finding
that Abshire and USK9 purposefully availed themselves
of Texas in connection with the alleged defamatory
statement and Pannell’s claim does not arise out of
or relate to that statement, we conclude that the trial
court could not exercise specific jurisdiction over them.
Having concluded that Abshire and USK9 have
negated all bases for the assertion of personal jurisdiction over them, we sustain Abshire and USK9’s
issue.1
1 In light of our holding, we need not address the question of
whether the exercise of personal jurisdiction would offend the

App.31a
Conclusion
We reverse the trial court’s August 27, 2019 order
denying Abshire and USK9’s special appearance, and
we dismiss Pannell’s claims against them.
Russell Lloyd
Justice
Panel consists of Justices Keyes, Lloyd, and Hightower.

traditional notions of fair play and substantial justice. See 11500
Space Ctr., L.L.C. v. Private Capital Grp, Inc., 577 S.W.3d 322,
336 n.9 (Tex. App.—Houston [1st Dist.] 2019, no pet.).

App.32a
JUDGMENT OF THE COURT OF APPEALS
FOR THE FIRST DISTRICT OF TEXAS
(JULY 7, 2020)
IN THE COURT OF APPEALS FOR THE
FIRST DISTRICT OF TEXAS
________________________
ROGER ABSHIRE AND USK9 UNLIMITED, INC.,
Appellants,
v.
JUSTIN PANNELL,
Appellee.
________________________
No. 01-19-00710-CV
Appeal from the 80th District Court Harris County,
(Tr. Ct. No. 2017-52769-A)
Before: KEYES, LLOYD, HIGHTOWER, Justices.
This case is an appeal from the interlocutory order
signed by the trial court on August 29, 2019. After
submitting the case on the appellate record and the
arguments properly raised by the parties, the Court
holds that there was reversible error in the trial
court’s judgment in the following respect: the trial
court lacked jurisdiction over Roger Abshire and USK9
Unlimited, Inc. and, accordingly, erred in denying their
special appearance. Accordingly, the Court reverses
the trial court’s judgment and renders judgment

App.33a
dismissing the claims of Justin Pannell against Roger
Abshire and USK9 Unlimited, Inc.
The Court orders that the appellee, Justin Pannell
pay all appellate costs.
The Court orders that this decision be certified
below for observance.
Judgment rendered July 7, 2020.
Panel consists of Justices Keyes, Lloyd, and Hightower.
Opinion delivered by Justice Lloyd.

App.34a
ORDER DENYING ROGER ABSHIRE AND
USK9 UNLIMITED’S SPECIAL APPEARANCE
(AUGUST 27, 2019)
IN THE DISTRICT COURT 80TH JUDICIAL
DISTRICT OF HARRIS COUNTY, TEXAS
________________________
JUSTIN PANNELL,
Plaintiff,
v.
CITY OF ROSENBERG, ROSENBERG POLICE
DEPARTMENT, DALLAS WARREN, JEREMY
EDER, FORT BEND COUNTY, FORT BEND
COUNTY SHERIFF'S OFFICE, JOSH DALE,
BRYAN BAKER, ROGER ABSHIRE AND USK9
UNLIMITED, INCORPORATED,
Defendants.
________________________
No. 2017-52769
Before: WEIMAN, Judge.
On August 23, 2019, the Court after having considered the arguments of counsel and evidence hereby
ruled that the special appearance should be DENIED.
/s/ Lawrence Weisman
Judge
Date: 8/27/2019

App.35a

Approved as to Form:
/s/ Bendict Hoffman w/ permission
Benedict Hoffman
TBN: 24100600
One East Greenway Plaza, Suite 1005
Houston, Texas 77046
713-667-6767
866-346-3121
Hoffb16@nationwide.com
Approved as to Form and Substance:
/s/ Alexander J. Houthuijzen
Alexander J. Houthuijzen
TBN: 24101224
917 Franklin St. 400
Houston, Texas 77002
713-600-9902
713-526-1798
alex@alexthedefender.com

App.36a
BENCH RULING TRANSCRIPT
RELEVANT EXCERPT
(AUGUST 23, 2019)
IN THE DISTRICT COURT 80TH JUDICIAL
DISTRICT OF HARRIS COUNTY, TEXAS
________________________
JUSTIN PANNELL,
Plaintiff,
v.
CITY OF ROSENBERG, ROSENBERG POLICE
DEPARTMENT, DALLAS WARREN, JEREMY
EDER, FORT BEND COUNTY, FORT BEND
COUNTY SHERIFF'S OFFICE, JOSH DALE,
BRYAN BAKER, ROGER ABSHIRE
AND USK9 UNLIMITED,
Defendants.
________________________
No. 2017-52769
Appellate Case No. 01-19-00710-CV
Before: Larry WEIMAN, Judge.
APPEARANCES
Alexander J. Houthuijzen
SBOT NO. 24101224
Law Office of Alexander J. Houthuijzen
917 Franklin Street, Fourth Floor
Houston, Texas 77002

App.37a
Telephone: (713) 600-9902
Fax: (713) 526-1798
Counsel for Plaintiff Justin Pannell
Benedict J. Hoffman
SBOT No. 24100600
Law Offices of Amy L. Mitchell
One East Greenway Plaza, Suite 1005
Houston, Texas 77046
Telephone: (713) 667-6767
Fax: (866) 364-3121
Counsel for Defendants
Roger Abshire and USK9
Unlimited, Incorporated
[August 23, 2019, Transcript p. 1]
THE COURT: Okay. Let’s go on the record please,
Cause Number 2017-52769, Justin Pannell versus
City of Rosenberg. We have several motions pending. Continuing the Special Appearance hearing.
And there’s also some discovery issues.
Counsel, please state your appearances for the record.
MR. HOUTHUIJZEN: Alexander Houthuijzen for the
plaintiff, Justin Pannell. Last name is spelled HO—okay, I won’t spell it.
MR. HOFFMAN: Benedict Hoffman on behalf of
defendants, Roger Abshire and USK9 Unlimited.
THE COURT: Okay. And let’s keep it under the time
because we have other hearings coming in. So,
we’ll need to move along. You may proceed.
MR. HOFFMAN: Thank you, Your Honor. Addressing
the Special Appearance which we—was held
March 29, 2019. I’ll be very quick, Judge.

App.38a
My recollection of that hearing is that Your Honor
agreed that general jurisdiction had been negated
based on the evidence that was presented and
discussed. However, Your Honor had questions
regarding specific jurisdiction specifically about
who initiated the—the communication that was
complained of. Just a reminder, that was allegedly
via telephone conversation as my client lives in
Louisiana.
And Your Honor asked the parties to provide one
or two things. The first was to submit any evidence that would substantiate or contradict Mr.
Abshire’s contention that he received any communication and then did not initiate it.
And the second was Your Honor asked the question
of whether or not there was any case law on
point specifically regarding whether specific jurisdiction could be conferred with a single phone
call.
THE COURT: Okay. Well, we can proceed. I don’t
know if there’s any reply at this point. But we’ll
—I mean, we’ll proceed. Any comment at this
point?
MR. HOFFMAN: Actually, I’ll be—I just had one
follow-up to that, Your Honor, if I may, unless
counsel wants to interject.
That was March 29th, Your Honor. On April 15th,
as was suggested by the Court, the defendant—
defendants did file the affidavit of Chief Dallis,
or excuse me, former Chief Dallis Warren. And
in Chief Warren’s affidavit, he confirmed or
substantiated Mr. Abshire’s contention that any
communications that were complained of in

App.39a
plaintiff’s petition would have originated from
him. And I’ll just leave it at that.
THE COURT: Okay. You may proceed.
MR. HOUTHUIJZEN: Thank you, Judge. So, obviously,
I entered an appearance in this case in April. So,
I’m not aware of what happened in those prior
hearings or what was said in this court. So, I’ve
tried to put together my responses to what I
understand to be going on.
My understanding is that they are trying to claim
that this Court doesn’t have jurisdiction over
Mr. Abshire and USK9 Unlimited because this
company is based in Louisiana. So, the first
thing I would like to bring to the Court’s attention is that this Court has actually already ruled
on a motion to sever and a motion to transfer
venue. By doing that, I didn’t see any objections
made by the defendants to those motions, the
orders that were signed by this Court.
And if you look at Rule 120a(2) of the Texas Rules
of Civil Procedure, it says, “Any motion to challenge the jurisdiction provided for herein shall
be heard and determined before a motion to
transfer venue or any other plea or pleading
may be heard.”
And then quoting Tranz v. Peter Paul Petroleum
Co, the case stated that, “If a party moves for a
special appearance obtains hearing on a matter
seeking affirmative relief inconsistent with the
special appearance before obtaining the ruling
on the special appearance, it has entered a general appearance and waived any challenge personal
jurisdiction.”

App.40a
Our first argument to the Court is that the
defendants have waived any objection to personal
jurisdiction of this Court because they didn’t
object to the motion to transfer venue. They
didn’t object to the motion to sever. And they
didn’t bring up the fact that they were challenging
this Court. They allowed this Court to exercise
jurisdiction over Mr. Abshire and USK9 by severing the cases and by moving the other defendants
to Fort Bend County. So, that’s the first part.
Now, if the Court doesn’t think that that’s—that
they have waived their Special Appearance, there
has been plentiful evidence that shows that Mr.
Abshire for years has been coming to the state of
Texas. He sells dogs to different police departments
throughout the state. In fact, I went on his website, and I attached it to a motion that I submitted to this Court, where he brags about furnishing
dogs to about 22 or 23 different police departments in the state. He has purposefully availed
himself of the benefits of this forum state. And so,
this Special Appearance shouldn’t even be occurring.
In another case in Bay City, they–Mr. Abshire did
the same thing. And then they agreed and waived
the Special Appearance later on in the case.
This is just a stalling tactic that they are using.
And I don’t understand it. But Mr. Abshire is
subject to the jurisdiction of this case. And all of
the motions and filings that I’ve put before the
Court establishes that.
The only other thing I have is a case that I submitted in a sur-reply to their response to this–

App.41a
my sur-reply, which was TV Azteca v. Ruiz, which
is a case from 2016 from the Supreme Court of
Texas. In that case, there was a Mexican TV
company that was submitting broadcast to the
state of Texas. And they were reaching quite a
few different people. And the Court actually
granted a Special Appearance. The Court of
Appeals affirmed it. And then the Supreme Court
said, “No, sir. What needs to happen is they
need to understand that they’ve purposefully
availed themselves of this jurisdiction by putting
their products into our stream of commerce.”
And then the only other thing is there’s a note in
that case. I mean, it’s actually headnote 27. And
it says that in determining whether a nonresident
defendant purposefully availed itself of conducting
activities within the forum state so as to support
the exercise of specific personal jurisdiction in
compliance with due process, the fact that the
plaintiff lives and was injured in the forum state
is not irrelevant to the jurisdictional inquiry, but
it is relevant only to the extent that it shows
that the forum state was the focus of the activities of the defendant.
And so, the jurisdictional question is not just about
the specific injury that we are complaining of in
our lawsuit. It is about the rest of the defendant’s
activities by selling dogs to all of these different
police departments. And so, we would ask this
Court to finally deny their Special Appearance
and allow us to proceed forward in this lawsuit.
THE COURT: Response.

App.42a
MR. HOFFMAN: If I may respond, Your Honor. I’m
going to address very quickly the–counsel’s argument in regards to waiver, as it pertains to
waiver. And the argument is this, Judge, one,
that that motion and that argument was filed
one day prior to this hearing. It’s not properly
noticed to be addressed today. But I understand
that if we’re to address the Special Appearance,
I’m prepared to address it, Your Honor.
Let me say, first of all, that there’s a disagreement
regarding the—the timeline and the facts.
In November of 2017, Your Honor entertained the
initial argument regarding defendant’s Special
Appearance. At that time, and in subsequent
hearings, defendants did have the position that
the Court must rule on the Special Appearance
prior to addressing any of the other motions
regarding transfer venue. Those motions were
not filed by these defendants, Your Honor. They
were filed by the other entities that were involved
in the suit.
In November of 2018, we had a hearing which
I believe was the third hearing on the Special
Appearance where the codefendants expressed
their frustration with the amount of time that
was taken to conduct the limited discovery. And
by agreement, Your Honor was to address the
Special Appearance and allow the codefendants
to go pursue their claims that were tied up here
with Fort Bend, as I believe Your Honor had
ruled on it in—at least at the initial hearing. We
were just waiting.

App.43a
So, the argument is the defendants have-these
defendants have never raised any issue regarding
anything aside from the Special Appearance.
And as such, there’s been no conduct by the defendants or these defendants that would constitute
waiver.
THE COURT: And your clients were not involved in
the action that was transferred to Fort Bend
County?
MR. HOFFMAN: Correct, Your Honor. And make sure
I don’t forget to address—let me, if I could very
briefly address. Your Honor, as I mentioned before,
did invite the parties to supplement the discovery
and provide the Court with case law. That was
on point as to the issue regarding specific jurisdiction.
I’ll just be very brief, Your Honor, that the case
that was provided, the facts are that there’s a
television program allegedly making defamatory
statements regarding Texas residents. Your
Honor’s direction was to provide specific case law.
That would be on point as to the issue regarding
conferring jurisdiction with the phone call, I
would argue that this case isn’t on point.
And although I did, there’s some excellent analysis
regarding stream of commerce that I think is
applicable to our case. That, just as a reminder
just placing products in the stream of conference—
of commerce, in particular, the state is not
enough to confer jurisdiction.
THE COURT: Okay. Anything further?

App.44a
MR. HOUTHUIJZEN: I stand by everything I said,
Judge.
THE COURT: Well, the Court does not find that the
motion—that the Special Appearance has been
waived. The transfer of venue did not involve
this defendant. This defendant wasn’t transferred
or, you know, over to Fort Bend. And I don’t
know that they would have had standing to—or
to interject themselves in the motion that did
not involve them at all. I don’t think passively
having other parties have their issue that didn’t
involve them adjudicated, I don’t think waived
their Special Appearance. So, I’ll overrule the
objection as to waiver.
Now, on this Special Appearance itself, with regard
to case law, did you want to—no one has actually shown the Court any case law since the last
time you’ve been here on point. Do either one of
you have any?
MR. HOUTHUIJZEN: I attached to my sur-reply,
the TV Azteca case.
THE COURT: Do you have a copy of it, please?
MR. HOUTHUIJZEN: I don’t have a copy.
MR. HOFFMAN: I do, Your Honor. I’d be happy to—
although, I apologize. It has my notes on it. I
apologize.
MR. HOUTHUIJZEN: Doesn’t bother me.
THE COURT: I can probably pull it up on the screen.
Let me find it here. What date did you file it?
MR. HOUTHUIJZEN: That would be 4-24. I’m sorry,
April 24th.

App.45a
THE COURT: Okay.
MR. HOUTHUIJZEN: And I can email the Court a
copy of that.
THE COURT: No. If you filed it, it will be on here.
Let’s see. Says it was filed with a sur-reply?
MR. HOUTHUIJZEN: Yes, sir.
THE COURT: I see an Exhibit 1 that’s nine pages.
That’s not a case. Okay. Is it Azteca v. Ruiz?
MR. HOUTHUIJZEN: Yes, sir.
THE COURT: Okay. Let me pull that up here. Says
it’s a Supreme Court case from 2016. Okay. And
how is the holding in that case, how is it applicable
here?
MR. HOUTHUIJZEN: In this case, the Court held
that the defendants had purposefully availed
themselves of the privilege conducting activities
in Texas. So, even though the company that he’s
running is based in Louisiana, he was purposefully
taking dogs and selling them to police departments
throughout the state of Texas. He was conducting
business with the state of Texas. And so, to say
that he should be allowed to confer the benefits
of conducting that business in the state of Texas,
but he’s not allowed to have the detriments is
just not fair.
And so, that’s what this case is talking about, that
the exercise of specific personal jurisdiction
comported with traditional notions of fair play
and substantial justice.
THE COURT: Okay. So, what’s the reply with regard
to the cite of this TV Azteca case?

App.46a
MR. HOFFMAN: Your Honor, as I mentioned a
moment ago, it—the facts are not aligned with
our case. And specifically, your request was to
clarify specific jurisdiction. I believe counsel’s
arguments would be more into with general
jurisdiction. I have nothing more to add.
THE COURT: But I don’t think this case was raised
at the previous hearing, right?
MR. HOFFMAN: It was not, Your Honor.
THE COURT: So, again, the Court has to naturally
consider all binding case law. And this is a
Texas Supreme Court case. So, I’ve got to see
how do you believe the facts in this case before
the 80th District Court is significantly different
from the TV Azteca case versus Ruiz.
MR. HOFFMAN: Well, specifically, Your Honor, in
this particular case, again, this is defamation
that it was allegedly spread via broadcast from a
TV station.
The facts in our case allege a defamatory statement
that was spread via a single telephone call. So,
that first and foremost—aside from that, Your
Honor, I stand on the previous arguments that
we have made in regards to general jurisdiction
specifically regarding the extensive argument
Your Honor has already heard in regards to my
client’s deposition that was conducted. And the
fact that, again, he’s incorporated in Louisiana,
has never been incorporated elsewhere, conducts
his business including the training of the animals,
the training of the—his—of the clients, being the
law enforcement and government personnel that
train with the dogs. And he does not, as a regular

App.47a
course of duty, ship the dogs to the clients. They
come to him. The train is conducted on site. I
could go on, Your Honor. But I get all of the
arguments and the facts that were raised at the
previous hearing.
THE COURT: And on the alleged defamatory phone
call, that was made by—the call was initiated by
the plaintiff; is that correct?
MR. HOFFMAN: By chief—former Chief Dallis Warren. And that’s via sworn affidavit that’s been
filed with the Court.
THE COURT: Okay. So, let me—on the reply here,
are you going on general contacts rather than
specific contacts? I’m trying to understand the
grounds that you’re challenging the Special
Appearance. In other words, you’re talking about
them sending dogs into Texas. Their market is
intended to be in Texas.
Now, with regard to the alleged defamatory call,
you’ve heard that the defendant has allegedlythe call was actually initiated not by them but
by the plaintiff.
MR. HOUTHUIJZEN: Not by the plaintiff.
MR. HOFFMAN: Codefendant.
THE COURT: Codefendant rather.
MR. HOUTHUIJZEN: That’s why the lawsuit was
filed because the defendants were defaming the
plaintiff. And so, Mr. Abshire was involved in
the telephone call. And no one has said that he
wasn’t. And so, at the very minimum, that estab-

App.48a
lishes that he was conducting some sort of business with them.
And then he was personally selling dogs to that
police department. And so, the test for personal
jurisdiction over a nonresident defendant is if
the defendant has established minimum contacts
with the state. And at the very minimum, even
if he picks up the phone call and talks to the
chief of the police department in Rosenberg,
that’s minimum contacts. But we have even further evidence of his contacts by invoices of him
selling the dogs, him admitting in—in the request
for admissions, that he was selling the dogs to
the state of Texas. And soTHE COURT: So, you believe that even on general
jurisdiction, direct grounds are sufficient minimum
contacts that would make it fair to hail the
defendant into Texas court?
MR. HOUTHUIJZEN: Yes, sir. And I think that the
test that is talked about in the TV Azteca case
applies. The defendant has established minimum
contacts with the state in the exercise of jurisdiction, comports with traditional notions of fair
play and substantial justice. So, he’s saying that
he can come here. He can sell dogs. He can make
money, and then he can go back to Louisiana,
and it doesn’t matter who he hurts.
THE COURT: Okay. Give me a moment. I want to
look through the cited case, the TV Azteca case.
Now, as I’m going through this case, the plaintiff in
the TV Azteca case actually resided in Texas; is
that correct?

App.49a
MR. HOUTHUIJZEN: Yes.
THE COURT: Okay. That’s not the case here. Here
the plaintiff resides in Louisiana.
MR. HOUTHUIJZEN: Plaintiff resides in Texas.
THE COURT: Pardon me?
MR. HOUTHUIJZEN: In our case, the plaintiff resides
in Texas. The defendant resides in Louisiana.
THE COURT: Okay. Okay. The Court, when we previously met on these and had previous hearings,
this case was not apparently previously presented
to the Court or argued. However, reviewing the
Texas Supreme Court Opinion in TV Azteca v.
Ruiz, the Court denies the Special Appearance.
Do I have an order denying?
MR. HOUTHUIJZEN: I don’t know if I filed one. I
can file one.
THE COURT: Let me see if I have one.
MR. HOFFMAN: May I be heard, Your Honor?
THE COURT: Well, the Court’s already ruled on it,
so.
MR. HOFFMAN: Oh, I’m just inquiring about whether
or not the order will contain the basis for Your
Honor’s ruling.
THE COURT: I don’t think it’s necessary, but I want
to see the proposed order on it.
You didn’t bring an order?
MR. HOUTHUIJZEN: I don’t know if I filed one. There
might be one.

App.50a
THE COURT: See if you can find an order. Or if you
find out what date you filed it, I can pull it up on
here. Mr. Casares will print the order—
MR. HOUTHUIJZEN: Okay.
THE COURT:—or I can sign it electronically. Okay. It’s
just a simple order denying the Special Appearance.
No. This is the motion to severe, looks like. This
isn’t the right order.
MR. HOUTHUIJZEN: And, Judge, I would like to
pass all the rest of my motions and hearings that
were set for today.
THE COURT: Did you have any other hearings set or
any other motions?
MR. HOFFMAN: Just the motion to quash.
THE COURT: Okay.
MR. HOUTHUIJZEN: And that was for a deposition
on the Special Appearance. So, I don’t think–
THE COURT: So, that’s moot?
MR. HOUTHUIJZEN: Yes, sir, it is. It is. I can file—
I can file one.
THE COURT: Okay. Submit it to opposing counsel as
to the form. It will be just a simple order denying
the Special Appearance.
MR. HOUTHUIJZEN: Yes, sir.
THE COURT: We’re off the record.
MR. HOUTHUIJZEN: Thank you, Judge.
MR. HOFFMAN: Thank you, Your Honor.
(Proceedings concluded.)

